<html>
<title> - THE CONTINUED IMPORTANCE OF THE VIOLENCE AGAINST WOMEN ACT</title>
<body><pre>[Senate Hearing 111-405]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-405
 
       THE CONTINUED IMPORTANCE OF THE VIOLENCE AGAINST WOMEN ACT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2009

                               __________

                          Serial No. J-111-29

                               __________

         Printed for the use of the Committee on the Judiciary





                  U.S. GOVERNMENT PRINTING OFFICE
56-212                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    81
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    94
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..     4
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   100
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................   147
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3

                               WITNESSES

Burke, Ann, RN, M.Ed., President and Founder, Lindsay Ann Burke 
  Memorial Fund, Saunderstown, Rhode Island......................    17
Campbell, Collene, National Chair, Force 100, San Juan 
  Capistrano, California.........................................    20
Pierce, Catherine, Acting Director, Office on Violence Against 
  Women, U.S. Department of Justice..............................     4
Tronsgard-Scott, Karen, Director, Vermont Network Against 
  Domestic and Sexual Violence, Montpelier, Vermont..............    14
Union, Gabrielle, Actor and Advocate, Beverly Hills, California..    13
Wells, Sally Wolfgang, Chief Assistant, Office of the Maricopa 
  County Attorney, Phoenix Arizona...............................    22

                         QUESTIONS AND ANSWERS

Responses of Ann Burke to questions submitted by Senator Specter.    34
Responses of Collene Campbell to questions submitted by Senator 
  Specter........................................................    37
Responses of Catherine Pierce to questions submitted by Senator 
  Specter........................................................    38
Responses of Karen Tronsgard-Scott to questions submitted by 
  Senator Specter................................................    43
Responses of Gabrielle Union to questions submitted by Senator 
  Specter........................................................    46
Responses of Sally Wolfgang Wells to questions submitted by 
  Senator Schumer................................................    49

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Caroline Fredrickson, Director 
  and Vania Leveille, Legislative Counsel, Washington, 
  Legislative office, Lenora Lapidus, Director, and Sandra Park, 
  Staff Attorney, Women's Rights Project, Washington, D.C., 
  statement......................................................    52
Burke, Ann, RN, M.Ed., President and Founder, Lindsay Ann Burke 
  Memorial Fund, Saunderstown, Rhode Island:
    statement....................................................    59
    Chapter 490..................................................    62
Campbell, Collene, National Chair, Force 100, San Juan 
  Capistrano, California, statement..............................    64
Children's Aids Fund, Washington, D.C., statement................    69
Claiborne, Liz, Inc., and Family Violence Prevention Fund, 
  Washington, D.C., letter.......................................    70
De La Calle, Michelle, San Jose, California, statement...........    87
Keitelman, Elina Nicole, Marriage and Family Therapist, statement    95
Legal Momentum Advancing Women's Rights, Irasema Garza, 
  President; Leslye Orloff, Vice-President for Government 
  Affairs; Maya Raghu, Senior Staff Attorney; Sameera Hafiz, 
  Staff Attorney; Jennifer Grayson, Senior Policy Analyst, 
  Washington, D.C., statement....................................   102
National Center for Victims of Crime, Washington, D.C., fact 
  sheet..........................................................   119
National Congress of American Indians, Task Force on Violence 
  Against Women, Karen Articiker, Co-Chair and Juana Majel, Co-
  Chair, Washington, D.C., statement.............................   120
National Association of Attorneys General, Washington, D.C., 
  Resolution.....................................................   129
National Foundation for Women Legislators, Inc, Washington, D.C., 
  Joint Resolution...............................................   131
Pierce, Catherine, Acting Director, Office on Violence Against 
  Women, U.S. Department of Justice, statement...................   132
Raver, Deidre, Co-Founder, Women Against Violence, Fishkill, New 
  York, statement................................................   145
Tronsgard-Scott, Karen, Director, Vermont Network Against 
  Domestic and Sexual Violence, Montpelier, Vermont, statement...   148
Union, Gabrielle, Actor and Advocate, Beverly Hills, California, 
  statement......................................................   153
Wells, Sally Wolfgang, Chief Assistant, Office of the Maricopa 
  County Attorney, Phoenix Arizona, statement....................   160


       THE CONTINUED IMPORTANCE OF THE VIOLENCE AGAINST WOMEN ACT

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Kaufman, 
and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning.
    Since 1994, the Violence Against Women Act, or VAWA, has 
been the centerpiece of the Federal Government's commitment to 
combating domestic violence and other violent crimes against 
women. Its passage and reauthorization were a signal 
achievement in support of the rights of women in America. I am 
glad to see Senator Kaufman from Delaware because his 
predecessor, who now has another job in Government, Joe Biden, 
was, of course, so instrumental in the passing of VAWA. The 
landmark law filled a void in Federal law that had left too 
many victims of domestic and sexual violence without the help 
they needed. It is interesting that it passed with very strong 
bipartisan support, and I would compliment then-Senator Biden 
and Senator Hatch, who were Chairman and Ranking Member, 
respectively, who worked so hard in getting this passed.
    I look forward to working with members of the Committee, 
the Obama-Biden administration, and experts in the field to 
ensure the law remains a vital resource for prosecutors, law 
enforcement agencies, victim service providers, but, most 
importantly, the women and families who are threatened with 
violence.
    Today we have an extraordinary panel of witnesses. Of 
course, the first one is going to be Catherine Pierce, and I am 
glad to see you here, Ms. Pierce. She is the Acting Director of 
the Office on Violence Against Women at the Justice Department. 
Of course, Karen Tronsgard-Scott, whom I have known for many 
years and was just talking with, is a leader for ending 
domestic and sexual violence in Vermont.
    I mention Karen because people think of Vermont--like so 
many small, rural, bucolic States, we have a very low crime 
rate and everything else. But we have domestic violence in 
every State--every State, every situation. Sometimes in more 
rural areas it is more hidden because it is something people do 
not want to talk about. I know that.
    Three witnesses will be sharing their personal stories with 
the Committee. One has gone on to become a successful actor, 
one has helped pass a Rhode Island State law requiring teen 
dating violence education in public schools, and one has become 
a passionate advocate for victims in California.
    I saw the devastating effects of domestic and sexual 
violence early in my career as a prosecutor, the Vermont 
State's Attorney for Chittenden County. I know that violence 
and abuse reach into the homes of people from all walks of life 
every day, regardless of gender or race or culture, age, class, 
sexuality, or economic status. Domestic violence is a crime. We 
should never forget that: Domestic violence is a crime. When I 
became a prosecutor, people did not prosecute it. I changed 
that. And now everybody knows you have to. It does not make any 
difference whether it is a family member, a current or past 
spouse, a boyfriend or girlfriend, an acquaintance or a 
stranger. It is a crime. It is a crime. It is a crime.
    We have made some remarkable progress in recognizing that 
domestic violence, sexual assault, stalking, and dating 
violence are crimes. Since the enactment of VAWA, the rates of 
non-fatal and fatal domestic violence have declined, more 
victims have felt confident to come forward to report these 
crimes, and States have passed more than 600 laws to help this 
and to fight this kind of crime. But we still have millions of 
women, men, children, and families who are traumatized by 
abuse. We know that one in four American women and one in seven 
men are victims of domestic violence. One in six women and one 
in 33 men are victims of sexual assault, and 1.4 million 
individuals are stalked each year. So we have to keep on with 
these programs.
    A 2008 census by the National Network to End Domestic 
Violence found that in just 1 day, more than 60,500 adults and 
children were served by local domestic violence programs. 
Almost 9000 requests went unmet.
    Numbers like these are why I advocated for increased 
funding in the American Recovery and Reinvestment Act for 
important VAWA programs. The STOP--Services, Training, 
Officers, Prosecutors--Formula Grant program is one of these. 
The inclusion of $175 million for STOP grants in the Recovery 
Act is going to give resources to law enforcement agencies and 
prosecutors and courts and victim advocacy groups to improve 
victim safety; also, $50 million for the Transitional Housing 
Assistance Grant, something I authored to provide safe havens. 
There is a lot more in this. I want to get on to the witnesses, 
and I will put my full statement in the record. But the bill we 
have before us will make corrections and improvements so that 
the law which has helped so many can continue to serve as a 
powerful tool to combat violence perpetrated against women and 
families. We were able to pass this through Committee in early 
May. I have trying to get it passed out to the Senate. It has 
bipartisan support. I think every victim of domestic violence 
in this country would tell us how important this is.
    With that, I will yield to another former and distinguished 
prosecutor, Senator Sessions of Alabama.

  STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM ALABAMA

    Senator Sessions. Thank you, Mr. Chairman, and thank you, 
Ms. Pierce. We are delighted to have you here. I will not delay 
with any long remarks, and we look forward to hearing your 
testimony.
    We do spend a considerable sum of money. It has a very 
important mission. Every dollar of it needs to be wisely and 
most effectively spent, and I want to discuss that because 
programs as they age sometimes become less vibrant and 
effective than they were when they initially started. So I 
would like to talk about that.
    I would agree with the Chairman. It has been tremendous 
progress. When I started as United States Attorney in 1981, I 
guess, I sensed that that local police departments, even small 
police departments, were becoming far more attuned to the 
dangers that occur from ignoring domestic violence. Training 
programs have increased dramatically, and most departments are 
far more sophisticated today than when this program originally 
passed, and that is all to the good.
    So let us talk about what good things have happened and 
what challenges we face and how to make sure that these 
programs are the most productive programs to reduce violence in 
America.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    Senator Kaufman, do you want to say something?
    Senator Kaufman. I just wanted to say I can remember in 
1990 when then-Senator Biden, now Vice President Biden, first 
started working on the Violence Against Women Act, and I know 
what a lonely job it was getting started, and it really is 
incredible. It has always been a great example to me of what 
you can if you really put your mind to doing it and you have a 
just cause, and he just picked up people as he went along.
    Clearly, I want to thank the Chairman for picking this up 
and moving with it and carrying it even further and for his 
introducing the Improving Assistance to Domestic and Sexual 
Violence Victims Act. But, you know, a lot of things have 
happened since the Act was passed which are very promising. 
Reported incidents of rape are down by 60 percent, and the 
number of women killed by an abusive husband or boyfriend is 
down 22 percent. Really striking, today more than half of all 
rape victims are stepping forward to report the crime--acts of 
rape that often need the protection and encouragement that 
VAWA's funding provides.
    But we still have a long way to go, and that is why we are 
here today, and this is what we have to talk about. We cannot 
afford to turn our backs on women and families in need of 
protection. We need to pass the Improving Assistance to 
Domestic Violence Victims Act and reinvigorate funding for 
Violence Against Women Act programs today.
    I just want to thank you for what you are doing. What you 
are doing is absolutely the most incredibly important thing 
that I see every day in the job that I do, and I want to thank 
you all.
    Thank you, Mr. Chairman.
    Chairman Leahy. Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM THE STATE 
                          OF MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    Chairman Leahy. Again, another former prosecutor.
    Senator Klobuchar. That is right. And I know somewhere Paul 
and Sheila Wellstone are looking down on us today. I think you 
know that this was their passion, and some of it came from 
Paul's fighting for anyone that did not get the best luck in 
life or was the most vulnerable, and Sheila really took this on 
in an amazing way. I still remember her arriving in Washington 
with her kind of frizzy hair and 8 years later, so she was just 
an amazing advocate for this nationally. And part of that 
advocacy actually came out of the work in Minnesota. I was the 
Hennepin County prosecutor for 8 years, the head of that 
office, and our Domestic Abuse Center really was a model for 
the country, a one-stop shop where there was a daycare center, 
and there was a place for police and prosecutors and 
restraining orders signed and everything, instead of having to 
go through a bureaucratic maze of red tape, which even lawyers 
could not figure out.
    So this is something near and dear to my heart. I am proud 
of the work we have done in Hennepin County and the work that 
has been done nationally since VAWA passed, and I am looking 
forward to working on the reauthorization.
    Thank you very much.
    Chairman Leahy. Thank you.
    Our first witness, Catherine Pierce, is currently the 
Acting Director of the Department of Justice's Office of 
Violence Against Women. Prior to her appointment as Acting 
Director, Ms. Pierce was the Deputy Director of the office in 
charge of public outreach and communications. She was 
responsible for launching the office's Sexual Assault Services 
Program and the Culturally and Linguistically Specific Service 
program. She originally joined the Office of Violence Against 
Women as one of the original staff members when the office 
opened in 1995. She has also worked in an advisory role with 
the State Department on human-trafficking issues, another 
matter of enormous seriousness.
    Prior to her time at the Department, she served as deputy 
at the State Justice Institute, where she oversaw the 
development of judicial education and training initiatives. She 
has a bachelor's from the University of Massachusetts at 
Amherst.
    Please go ahead, Ms. Pierce, and thank you for being here.

   STATEMENT OF CATHERINE PIERCE, ACTING DIRECTOR, OFFICE ON 
       VIOLENCE AGAINST WOMEN, U.S. DEPARTMENT OF JUSTICE

    Ms. Pierce. Thank you, Chairman Leahy and Ranking Member 
Sessions and members of the Committee, for the opportunity to 
speak with you today. As you said, my name is Catherine Pierce, 
and I am the Acting Director of the Department of Justice's 
Office on Violence Against Women. I am here today to discuss 
both the remarkable progress made since the Violence Against 
Women Act was enacted almost 15 years ago and the challenges 
ahead.
    I want to personally thank the Chairman and Committee staff 
for working so closely with the Department on S. 327, the 
Improving Assistance to Domestic and Sexual Violence Victims of 
2009. This bill contains a number of much needed amendments to 
improve VAWA's grant programs.
    Every day, VAWA funding makes a difference in how 
communities across America assist and protect victims. OVW's 19 
grant programs provide funding to States, local governments, 
tribal governments, and nonprofit organizations to assist 
communities, encouraging them to develop innovative strategies 
to respond to violence against women.
    We are grateful to Congress for reauthorizing VAWA in 2005 
and expanding our ability to respond to all victims of violence 
against women, including victims of sexual assault.
    We are pleased to report that this year, for the first 
time, OVW will make awards under the new Sexual Assault 
Services Program to support essential services provided by rape 
crisis centers throughout the Nation.
    OVW has increased its efforts to respond to the serious 
crime of stalking. In January of this year, the Department 
released a special report which confirms what the field has 
long known: Stalking is pervasive, women are at higher risk of 
being stalked, and there is a dangerous intersection between 
stalking and more violent crimes.
    As the Nation's understanding of domestic violence, sexual 
assault, and stalking has increased, so, too, has our awareness 
that these forms of violence affect all age groups and that 
violence within relationships often tragically begins during 
adolescence.
    In addition, with the reauthorization of VAWA 2005, 
Congress directed OVW to take new steps to address the critical 
problem of violence against Indian women. The Department 
appointed a Deputy Director for Tribal Affairs for OVW, 
established a Federal Advisory Committee to provide 
recommendations on a program of research, and instituted annual 
tribal consultations to learn how the Department can improve 
its response to these crimes.
    While we are rightly proud of our accomplishments, we 
recognize that there is still much to do. Looking forward, the 
office will focus on a number of areas where greater effort is 
needed. For example, over the years we have learned that law 
enforcement officers, prosecutors, and judges alike work with 
victim advocates to use their distinct roles to create 
coordinated community responses to violence against women. 
While this approach has been important to our efforts, we 
recognize that we cannot rely solely on the criminal justice 
system to end violence against women and that, to be effective, 
local responses must be informed by the voices and experiences 
of survivors, and also diverse representatives of the 
community. While VAWA has made a tremendous difference in the 
lives of many, we recognize that we have also left many women 
behind, particularly women of color.
    In the months and years to come, we will engage in efforts 
that place accountability for the safety of women and girls on 
the community as a whole. I am constantly inspired by the 
extraordinary commitment of the women and men who have devoted 
their lives to ending violence against women. But our lives 
have most been changed by survivors, women like Gabrielle Union 
and Ann Burke, who have experienced the unthinkable and who 
have the courage to tell their stories to advocate for change.
    I was compelled to commit my life to this work over 15 
years ago when I read the story of Kristin Lardner. Like one of 
my own daughters, Kristin was an art student with her entire 
life ahead of her. She was dating a man who became abusive. She 
broke up with him after he seriously beat her, and even then 
tried to help him get counseling. His response was to threaten 
and stalk her.
    Kristin successfully obtained a protection order against 
him, but he did not comply, came to her workplace, and insisted 
that she continue to see him. When she refused, he shot her in 
the head and then returned a few minutes later to shoot her 
twice more. He went back to his own apartment and committed 
suicide.
    The man who murdered Kristin had a three-page arrest 
record, was convicted of multiple offenses, was the subject of 
multiple restraining orders, and was on probation for 
repeatedly assaulting and abusing women. At the time of 
Kristin's murder, he had violated the terms of his probation in 
another jurisdiction and should well have been in jail.
    I learned about Kristin because her father, George Lardner, 
a reporter, investigated his own daughter's death and wrote a 
series of articles which won him the Pulitzer Prize. While this 
story changed my life, and perhaps many others, it did not 
bring Kristin back. Every day, stories about similar homicides, 
rape, domestic violence, and stalking remain in our headline. 
This is unacceptable. We have much, much more to do.
    Thank you, Mr. Chairman, Ranking Member Sessions, and 
members of the Committee, for your commitment, your ongoing 
commitment to this issue and your time this morning. I would be 
very happy to answer your questions.
    [The prepared statement of Ms. Pierce appears as a 
submission for the record.]
    Chairman Leahy. Thank you, and thank you for mentioning 
George Lardner's writing on that. I remember being gripped by 
that and wondering--one, it was very important he wrote it, but 
I can only imagine how difficult that must be for a parent to 
write something like that. I have three children of my own and 
now grandchildren. I can only imagine how that must tear one 
apart.
    We have a serious economic crisis in this country, Ms. 
Pierce. Has that affected, increased or decreased or in any way 
affected the need for the services that we have in VAWA?
    Ms. Pierce. I think it has, but I think I would like to 
state sort of unequivocally that unemployment is one of many 
factors that, in combination, can lead to an escalation in 
violence. We know from the research that Dr. Jacqueline 
Campbell has done that there are other things that happen in 
combination with unemployment and abusers threaten to kill her 
or her children, a woman or her children, or to harm them: 
threats to commit suicide, forced sex, and, most importantly, 
the presence of a gun. So these are additional factors that we 
always need to look for and that unemployment alone really is 
not the cause.
    I think I should also state that we know that shelters help 
women avoid that kind of abuse during situations where their 
partner or their husband may be unemployed, but also what is 
helpful is when judges know that they should issue a protection 
order and when guns should be removed from the home.
    Chairman Leahy. We put extra money in the Recovery Act for 
VAWA. Has that money started going out yet? Is it having any 
effect?
    Ms. Pierce. I am glad you asked that question.
    Chairman Leahy. I thought you might be.
    [Laughter.]
    Ms. Pierce. We have announced 46 formula awards to the 
States totaling more than $120 million. Those awards have been 
made, and this week 29 State coalition awards totaling more 
than $2.5 million have been made.
    Also, sometime around the middle of July, we will have made 
awards through our transitional housing program. We received 
567 applications for Recovery Act transitional housing relief, 
and we will be able to really support only about 20 percent of 
those. So there is a tremendous need.
    Similarly, we received 91 applications from tribal 
governments and will only be able to fund about a third of 
those.
    Chairman Leahy. You know, times change. I was mentioning to 
others earlier, when I was a prosecutor we did not have any of 
these programs, and we had to kind of make them up as we went 
along and fortunately had a lot of very dedicated people who 
contributed everything from housing on through. In fact, on 
occasion, my wife and I would provide that. But we have done a 
lot more than decades ago, but are there needs currently unmet 
for victims of domestic violence, sexual assault, dating 
violence, stalking? Are there things that we should be doing? 
Are there things that we could be doing at the Federal 
Government level? Obviously, the State governments have their 
own programs, but are things that we should be doing?
    Ms. Pierce. I think we really do need to enhance our 
response to sexual assault services, and we will be looking 
very specifically at the need for enhanced sexual assault 
services in rural America, in particular. We are very concerned 
about custody issues in domestic violence cases, and we will be 
looking very closely at why women are losing custody of their 
children either to the courts or through the States to the 
child protection system.
    We are also going to be looking very closely at the problem 
of children exposed to violence, and we know that children are 
safer when their mothers are safer, and that that safety is 
inextricably linked.
    The other thing, as I alluded to in my testimony, that is 
of great concern to us is that we begin to focus our efforts on 
homicide prevention more so than we ever have before, and that 
we use research to inform our practice and we use practice to 
inform our research.
    Chairman Leahy. I do not mean this as an either/or thing, 
by any means, but thank you for mentioning rural areas because, 
again, it is sometimes neglected. You also mentioned tribal 
issues. There has been a concern about the lack of 
communication between U.S. Attorney's Offices and Indian tribes 
regarding declinations, when a U.S. Attorney decides not to 
bring charges.
    Can anything be done about that? We do not have that 
situation in my State of Vermont, but I have talked to a number 
of the Western Senators of both parties who are concerned about 
it. Is there some way that we can get more timely information 
to tribal officials when they decline prosecutions?
    Ms. Pierce. Well, our office is responsible for providing 
direct funding to tribal governments and to tribal coalitions. 
Our mission is to make sure that we are providing victim 
services to Alaska Native villages and to different tribes in 
Indian country. So I would have to say that the mission of our 
office is not related to the prosecution of those crimes with 
the U.S. Attorneys.
    Chairman Leahy. But would you suggest that there is some 
way of getting better--do we need better communication?
    Ms. Pierce. Well, I was about to say, I mean, there is 
always room for better communication and better coordination 
within the Department and across Federal agencies, and we are 
very committed to enhancing that in the future as well.
    Chairman Leahy. I may make a few suggestions to the 
Attorney General and others to make sure that that is done.
    Senator Sessions.
    Senator Sessions. Well, thank you. You asked, Mr. 
Chairman--or began our discussion, I think, about what our new 
challenges are and what our studies are showing and how we can 
get that information out to local law enforcement. I remember 
our former colleague Fred Thompson used to say that the most 
valuable thing the Department of Justice can do is to do the 
good research that helps individual police departments and 
prosecutorial offices make the right decisions.
    You mentioned some of the studies that you have ongoing. 
Are you satisfied that the VAWA office and the Department of 
Justice programs are identifying in a very practical way the 
kind of protocols and procedures that would be most effective 
for a law enforcement agency of a mid-sized city, let us say, a 
police department, that they are getting the kind of guidance 
that helps them establish the very best protocols for success?
    Ms. Pierce. Thank you for asking that. I think yes, the 
answer is yes. With the help of some national law enforcement 
organizations, we have been able to develop what I think are 
clear protocol and practices, and you should be aware that we 
are also going to be updating what we call a manual on 
promising practices. We will be looking at law enforcement. And 
I think the thing for us to remember is that, you know, since 
the VAWA was passed, we have a whole new generation of police 
officers and prosecutors who need to be educated on those very 
promising practices and protocol that you have mentioned. And 
we do not need to go back and reinvent the wheel. We have done 
some significant work in that area, and what we need to do is 
to continue to educate.
    Senator Sessions. Well you gave the story about Kristin, 
and that is such a powerful story. I guess my question is: 
Could that stalker have been identified earlier? Do we have any 
kind of identifying characteristics that say this is an abusive 
person, but this was an abusive person who could become 
homicidal and dangerous? The average prosecutor and judge and 
police department, do they know what these are? And are they 
making the right identifications of the most dangerous people?
    Ms. Pierce. Again, thank you for raising that. I think we 
do have those indicators. I think we have that knowledge. I 
mentioned some of what those indicators were, and in the case 
of Kristin Lardner, I think a lot of those indicators were 
present. She did everything right----
    Senator Sessions. What are some--that is right.
    Ms. Pierce. Well, in her case, I mean, she went to get a 
protection order.
    Senator Sessions. She sought a protective order and got it.
    Ms. Pierce. But the problem was that, as I understand it, 
she got a protection order in Boston, and he had been arrested 
in other jurisdictions and across States lines, in New York. 
And so we need, obviously, data bases that speak to one 
another, and it would be great if every judge were able to pull 
up that information while on the bench. And that is something 
that we need to continue to do.
    But in lieu of that, I think that our judicial institutes 
that we support, the Leadership Institute for Chiefs of Police 
that we support, and the Prosecutors Resource Center that we 
support, are ways of getting that information out. We have the 
information, and we need to get it in the hands of local 
practitioners.
    Senator Sessions. I really think that is true. But just 
because you do a study and issue a report in Washington does 
not mean that a busy prosecutor or a busy judge has the 
opportunity to study it. And I do not know how we--and I assume 
there are some disputes about what the best protocols are on 
various type circumstances. But I would assume there are some 
areas in which there is virtual uniformity of agreement that 
under these circumstances this represents a real danger, and 
strong action should be taken. Would you agree?
    Ms. Pierce. I entirely agree with you. And, again, I think 
it is our responsibility to reach out----
    Senator Sessions. Have you thought about how to make sure 
that information is more widely spread? Do we have effective 
enough programs to get that information out?
    Ms. Pierce. I think we do. I think we need to continually 
reach out to prosecutor coordinators and to, you know, national 
associations that can provide us with lists of prosecutors whom 
we can go to and say, ``Please, we have this training. We are 
making it available with VAWA funding.'' And, actually, I think 
we have been quite successful in doing that. But we can always 
do better, and we continue to try to enhance, as you said, 
those data bases of judges, prosecutors, and law enforcement 
officers in every State.
    I have to say we have created, as a result of those 
educational programs, dedicated units like in Minneapolis and 
St. Paul and other parts of the country.
    Senator Sessions. I think that virtually every community 
has more specialized units, Penelope Houses, protective houses 
for women and children who have been abused.
    Ms. Pierce. Yes.
    Senator Sessions. I am real pleased by that, but I just 
would say continue the good research, continue to get the 
information out so it can be utilized, and we will have fewer 
of these cases like Kristin. It is my personal view that a lot 
of individuals, unfortunately, are very dangerous, and the 
number of people who would actually kill somebody or stalk 
somebody consistently or sexually assault somebody is not that 
large in this country. If they are properly identified, some of 
them need to be detained and locked up for the offenses they 
commit, and that will perhaps prevent offenses in the future.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Sessions.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Ms. Pierce, I always thought that one of the real beauties 
of VAWA is how it tried to encourage community-based responses 
and getting groups involved. And the way I see this, I will 
just tell our own experience of how this worked. We actually 
got our hospital involved so that we had victim witness 
advocates accessible to people when things were discovered. 
They were part of the community response. We actually started a 
post-review process for cases where the thought was something 
might have gone bad, or maybe something did not go back, kind 
of like they do in surgery after a hospital looks at all their 
errors to figure out what went wrong. And we did it not 
publicly, but we got all the partners together to figure out 
what went wrong, and sometimes they were little things of, you 
know, some police department not answering a phone call or 
someone not checking one kind of computer system. And we were 
able to do a better job because we did those reviews.
    Do you want to talk a little bit about that coordinated 
community response, how you think it could be improved and how 
it has contributed to the value of VAWA?
    Ms. Pierce. Definitely, and also let me say I did visit 
your office and saw what an extraordinary job you all were 
doing several years ago and continue to do, so I thank you for 
that.
    As I alluded to in my comments, I think that coordinated 
community responses will only be strengthened when we begin to 
turn to the communities, particularly the diverse communities, 
who we are charged with responding to. And I think that we have 
not done a good enough job of listening to the voices of 
survivors.
    But you alluded to something I would think has been an 
extraordinary and an excellent tool, which is the safety audits 
that were developed by one of our grantees. It is a tool that 
can be used to pull a coordinated community response together 
by looking at cases and figuring out where women fall through 
the cracks and who could have done a better job, without 
blaming or shaming or pointing the finger. To me, that has been 
one of the most useful tools that we have had.
    The other issue is, I think, for prosecutors, judges, and 
law enforcement officers to work with advocates in balance and 
to listen to advocates and survivors. I cannot underscore it 
enough.
    Senator Klobuchar. Right. One of the things I know was 
always frustrating for some of our prosecutors and the victims 
was just the enforcement of protection orders across 
jurisdictional boundaries, and I know that you have been 
looking into that. Part of your testimony was about that. Could 
you talk about what you think we could do better with that?
    Ms. Pierce. Well, I think as I said earlier, if we could 
begin to develop data bases that were more reliable for 
prosecutors, for judges, for law enforcement, I think that 
would make an enormous difference.
    Senator Klobuchar. Another thing--just thinking of my list 
of things that if my victims were here they would want to ask--
was just the rape kits, and I believe that the Violence Against 
Women Act prohibits grantee jurisdictions from charging victims 
of sexual assault for the cost of collecting and processing 
their rape kit. There are many jurisdictions, however, where 
the victim still ends up paying the price, either because a 
State does not compensate the victims for the full cost of the 
kit or because victims are expected to pay the cost themselves 
and have States reimburse them after the fact.
    Should we be taking more steps up front to ensure that no 
one has to pay for the rape kit?
    Ms. Pierce. Absolutely, unequivocally.
    Senator Klobuchar. Well, it is a growing----
    Chairman Leahy. Good. I would have been upset if you had 
answered the other way.
    [Laughter.]
    Senator Klobuchar. I am not making this up.
    Ms. Pierce. No. I know.
    Senator Klobuchar. It happens all the time, and in our 
State there were proposals to do this. So I know that it 
happens all the time. I think people would be surprised if they 
knew the facts.
    Last year, it was discovered that Los Angeles County has 
the largest backlog of untested rape kits of any jurisdiction 
in the country, almost 13,000 untested kits as of last summer. 
And even if L.A. County is the worst offender, it is really a 
national problem. The National Institute of Justice at one 
point estimated that there were approximately 400,000 untested 
kits nationwide. So as we look at this reauthorization, is this 
something we should be looking at as well?
    Ms. Pierce. Yes, and I think that we need to be looking at 
ways that our office can coordinate more effectively with other 
parts of the Department to make sure that this backlog gets 
addressed across the country.
    Senator Klobuchar. All right. Thank you very much. We 
appreciate your work.
    Ms. Pierce. Thank you.
    Chairman Leahy. Thank you very much.
    Did you have a follow-up question you wanted to ask?
    Senator Sessions. Just one, if I could. What do you think 
about the requirement in 2005 Congress created a funding 
incentive to cause States to test rapists, the perpetrators, 
for HIV within 48 hours, I believe, after arrest? Is that being 
effectively done? Do you think that is a good policy that every 
State should test sexual perpetrators for HIV?
    Ms. Pierce. Well, we definitely believe that women who have 
been exposed to HIV certainly have the right to request that 
the offender be tested. But as we all know, those of us who 
have worked in the criminal justice system for years, it is not 
always so that the offender is apprehended within 48 hours or 
so. So what we are focused on is being able to provide the 
victim with the alternative to receive counseling about 
prophylaxis herself. Our focus is on her. And what we have 
learned is that about 84 percent of State and local governments 
who receive funding through the grant program that you are 
referring to, the grants to encourage arrest program, are 
unable to meet that requirement.
    So what we want to do is to----
    Senator Sessions. Why are they unable?
    Ms. Pierce. It could be any number of reasons, but not the 
least of which is that the offender is not always available 
within that period of time.
    Senator Sessions. Well, that is obvious. They cannot do it 
if they are not arrested. But for those who are arrested, I do 
not know why that would not be just a standard protocol and why 
we would not support that.
    Ms. Pierce. Well, I think it is about giving the offender--
excuse me. It is about giving the victim an alternative. We 
need to have--yes, we need to test as we can----
    Senator Sessions. What information do you have that every 
department should test a rapist for HIV?
    Ms. Pierce. I do not.
    Senator Sessions. Okay. Well, we have got a law that says 
it. You are changing the subject on me. I just do not 
understand what the hesitation----
    Ms. Pierce. No, no, no. I am just saying that victims, 
where that offender is not available, we need to give the 
victim----
    Senator Sessions. Okay. I agree.
    Ms. Pierce. We need to put our focus on the victim and 
provide an alternative for her.
    Senator Sessions. Thank you.
    Chairman Leahy. Thank you.
    Senator Klobuchar, do you have any follow-up?
    Senator Klobuchar. No. Thank you.
    Chairman Leahy. Thank you very much, Ms. Pierce. Thank you 
for being here, and thank you for the emphasis you put on this.
    Ms. Pierce. Thank you very much. Thank you for all of your 
work. We appreciate it so much.
    Chairman Leahy. We are in this one together.
    Chairman Leahy. We will call up the next panel.
    Thank you all for being here. We are going to start with 
Gabrielle Union, an accomplished actress, made frequent 
appearances on television and in more than 20 films. When she 
is not acting, she serves as Ambassador for the Susan G. Komen 
for the Cure, an organization supporting breast cancer 
research. My wife and I have been on not the run but the fast 
walk for the cure.
    [Laughter.]
    Chairman Leahy. She is an advocate for victims of sexual 
assault. She is a graduate of UCLA where she received a 
bachelor's in sociology.
    Ms. Union, please go ahead.

   STATEMENT OF GABRIELLE UNION, ACTOR AND ADVOCATE, BEVERLY 
                       HILLS, CALIFORNIA

    Ms. Union. First, I would just like us all to join together 
and say the words ``sexual assault.'' All together now: 
``Sexual Assault.'' It is a little crazy that sometimes if we 
cannot even say the words, we cannot effectively begin to deal 
with the problem. So a brief back story.
    At 19 years old, I got a summertime job, like a lot of us, 
and while I was at work one night, a man came into the store, 
robbed the store, and during the course of the robbery, decided 
to rape me. During the course of the rape, he very calmly put 
the gun down that he had been holding to my head and said, ``Do 
you mind handing me the gun? '' And at that point I did my best 
Starsky and Hutch and I fell on my back, I popped the clip in, 
and I tried to kill him. And I missed, and we began to tussle, 
and he beat me beyond recognition.
    Luckily enough, I was--and I hate to say this. It really 
makes me sick to have to say that I had the privilege of being 
raped in a wealthy community. The police arrived within 
minutes. It is a police department that was adequately funded 
and staffed. They immediately took my statement. They were well 
trained. We immediately went to the rape crisis center, where 
they took my rape kit, and I was able to start the path from 
rape victim to rape survivor.
    I cannot say enough about the difference it made that I was 
raped in a wealthy community, with an adequately funded and 
staffed rape crisis center. I immediately began to get the 
treatment that I needed. Within days, my rape kit was tested 
and analyzed, and within a few days after that, my rapist was 
apprehended, and within a few months he took a plea, and I had 
my justice. It is rare. It does not happen. And I just cannot 
say enough about the need for adequately funded and staffed 
rape crisis centers throughout the United States. I work very 
closely with law enforcement, and what they always say is, ``We 
do not have the time or the resources to help get a rape victim 
between victim and survivor. Rape victims, they say, make 
terrible witnesses. Rape survivors are amazing and effective to 
help us get rapists off the street.
    So if you kind of want to bottom-line it, having adequately 
funded rape crisis centers helps get rapists off the streets. I 
have to reiterate that rapists do not go away at the end of the 
day to Rape Land where, you know, we like to think they go. 
They live next door to us. They are raping our mothers, our 
sisters, our daughters, our grandparents. They do not magically 
disappear. We have to help law enforcement get them off the 
streets. We have to be advocates for the victims to help them 
become survivors and lead happy, productive lives. And it 
starts with adequate funding.
    To tell a brief story, I was in Africa and I was sitting at 
the bar, and there was an image of Paris Hilton and her little 
dog that came on TV. And it got the bar all, you know, riled 
up, and they started telling these jokes. And this man said, 
you know, ``Silly American, you care more about your pets than 
you do about your people. They will spend tons of money to put 
a man away for abusing a dog, but they do not care if you beat 
your wife. So if you are ever in America, when in doubt, beat 
your wife and not your dog. You will not go to jail.''
    And I just want to say we have to make human beings a 
priority. We have to make our women and our children a priority 
and keeping them safe a priority, and it starts with adequately 
funding these programs with domestic violence programs and 
sexual assault programs.
    It has become a sad reality that when I go to Third World 
countries to speak to women and give them, you know, the ``just 
hang in there'' speech, I found that I have to give the exact 
same speech to women in America. In Third World countries, we 
do not have an expectation of, you know, criminal justice. 
There is no justice in those countries. There is no chance for, 
you know, therapy and handholding. And I am finding that I have 
to give the same exact speech to girls and women in America. We 
are supposed to be better than that, and we are not. And we 
have to do better.
    Thank you.
    [The prepared statement of Ms. Union appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Karen Tronsgard-Scott has been the Director of the Vermont 
Network Against Domestic Violence and Sexual Assault since 
2007, and I would note that my office and I have worked with 
her a lot during that time. Before she came to Vermont, she had 
worked with various victims services groups in Ohio for 15 
years. She received her bachelor's degree from Bowling Green 
State University, her master's degree from Ohio University. She 
currently lives in Hinesburg, Vermont, where the head of my 
Vermont office lives. The Vermont Network that she leads is a 
member coalition of the National Network to End Domestic 
Violence, and I would like to thank President Sue Else and 
members of the board and staff who worked tirelessly on behalf 
of everybody here and please, when you go back, give my thanks. 
And I think it would be fair to say give ourselves thanks, too.
    Go ahead.

 STATEMENT OF KAREN TRONSGARD-SCOTT, DIRECTOR, VERMONT NETWORK 
   AGAINST DOMESTIC AND SEXUAL VIOLENCE, MONTPELIER, VERMONT

    Ms. Tronsgard-Scott. Chairman Leahy, Ranking Member 
Sessions, and distinguished members of the Committee, thank you 
for the opportunity to discuss the success of the Violence 
Against Women Act, or VAWA, and the importance of reauthorizing 
it in 2011. The Vermont Network Against Domestic and Sexual 
Violence is a statewide coalition of domestic and sexual 
violence programs, and our 15 member programs are located 
throughout the State and provide lifesaving services to victims 
and their families. VAWA-funded programs like these are a 
critical part of our work in Vermont and across the country, 
and I am here today to discuss the success of VAWA programs and 
the need to sustain and strengthen VAWA with its upcoming 
reauthorization in 2011.
    The crime of domestic violence is pervasive and life-
threatening. In total, one in four women will experience 
domestic violence in her lifetime. One in six women and one in 
33 men have experienced an attempted or completed rape. Of 
course, the most heinous of these crimes is murder. And in 2005 
alone, 1,181 women were murdered by an intimate partner in the 
United States. Even in one of our Nation's safest States, 
Vermont, there were seven domestic violence-related homicides 
and an additional three domestic violence-related suicides in 
just 1 week in 2007.
    Additionally, the cycle of intergenerational violence is 
perpetuated as children witness violence. Approximately 15.5 
million kids are exposed to domestic violence every year.
    In addition to the terrible cost domestic violence and 
sexual violence have on the lives of individual victims and 
their families, these crimes cost taxpayers and communities. 
However, in addition to saving and rebuilding lives, VAWA 
actually saved taxpayers $14.8 billion in net averted social 
costs in its first 6 years alone. VAWA was not only the right 
thing to do; it was also fiscally sound legislation.
    VAWA has unquestionably improved the national response to 
domestic and sexual violence. Since VAWA passed in 1994, States 
have passed more than 660 laws to combat domestic violence, 
sexual assault, and stalking. The rate of non-fatal intimate 
partner violence against women has decreased by 63 percent. 
Remarkably, the number of individuals killed by an intimate 
partner has decreased by 24 percent for women and 48 percent 
for men.
    My written testimony details the impact of VAWA grants, 
including Transitional Housing grants, Legal Assistance to 
Victims grants, grants to encourage arrest and enforce 
Protection orders. Each of these grant funds has created 
systems through which adults and children can find paths to 
safer, peace-filled lives.
    But in my 15 years working to end violence against women, I 
have had a firsthand view of the impact of VAWA, and I would 
like to highlight three VAWA programs.
    Through the STOP Grants program, VAWA has helped to educate 
an entire generation of law enforcement officers, prosecutors, 
and judges about violence against women. STOP Grants help 
State, local, and tribal governments to strengthen effective 
law enforcement and prosecution strategies, and to develop and 
strengthen victims services in cases involving violent crimes 
against women. And I can personally attest to the results of a 
study performed by the Urban Institute which said STOP Grants 
have ensured that victims are safer, better supported by their 
communities, and treated more uniformly and sensitively by 
first response workers.
    VAWA Rural Grants allow jurisdictions to develop and 
implement programs that address the specific barriers faced by 
victims in rural areas. In Vermont, our statewide Rural Grant 
program has created an innovative, specialized domestic 
violence unit within the Department for Children and Families, 
which now reviews 100 percent of intake child abuse and neglect 
cases where domestic violence may be present, ensuring that 
children and their non-offending parents get the supports they 
need.
    For the first time, in fiscal year 2008, the Sexual Assault 
Victims Service Program, or SASP, was funded and will begin to 
meet the extreme needs of victims of sexual assault. The 
continuation and expansion of these funds is critical to the 
creation of services and collaborative relationships that will 
result in safer communities.
    Due to the overwhelming success of VAWA-funded programs, 
more and more victims are coming forward each year. However, 
this rising demand for services, without concurrent increases 
in funding, means that many desperate victims are turned away 
from life-saving services.
    Mr. Chairman, you noted that in just 1 day nearly 9,000 
requests for services went unmet across the country due to a 
lack of resources. Services for sexual assault victims are even 
more scarce and underfunded: with only 1,315 rape crisis 
centers nationwide, women, children, and men are on waiting 
lists to receive treatment and therapy after a sexual assault.
    The Violence Against Women Act is working, but the job is 
not done. Although VAWA has done much to create systems that 
help victims and survivors, so much more is needed. We must 
strengthen VAWA so that it can work for all victims of domestic 
and sexual violence. Whether they live in rural or urban areas, 
whether they are children or elderly victims, whether they 
speak English or another language, every victim deserves the 
chance to live a peace-filled life. Congress has a unique 
opportunity to make a difference in the lives of so many by 
reauthorizing the Violence Against Women Act with key and 
strategic improvements.
    Thank you, Chairman Leahy, Ranking Member Sessions, and the 
distinguished members of the Committee, for all you have done 
and all you will do to help victims of domestic violence and 
sexual assault.
    Thank you.
    [The prepared statement of Ms. Tronsgard-Scott appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Ann Burke is our next witness, and I think, Senator 
Whitehouse, you wanted to say something about Ms. Burke. Of 
course, having been married to a registered nurse for 47 years, 
I am delighted to have you here, although I am sorry for the 
reason you are here.
    Senator Whitehouse. Thank you, Mr. Chairman. I just want to 
welcome Ms. Burke here as a fellow Rhode Islander. Rhode Island 
is a small State, and I do not think there is a person in the 
State who was not aware of the tragedy that befell her family 
and the terrible way in which her life changed when Lindsay was 
murdered by an ex-boyfriend at the age of 23.
    We have also been very inspired by the way that Ann, as a 
teacher and a nurse, has taken what for many would be a 
disabling calamity in their life and turned it for as much good 
as one could possibly imagine that could be achieved out of 
such a tragedy. She has fought for, along with her husband, 
Chris, and obtained passage through the Rhode Island 
Legislature of the Lindsay Ann Burke Act, which requires 
programs in high school to support awareness of teen dating 
violence and support in the schools for those programs. She 
started the Lindsay Ann Burke Memorial Fund to provide support 
for those efforts, and she has co-founded a group called MADE, 
Moms and Dads for Education, to stop teen dating abuse, which 
is a parent support network for parents across the country to 
support healthy teen dating relationships and cope with the 
tragedies that still take place.
    So she is somebody Rhode Island is very proud of. We have 
shared with her as much as the public can such a deeply private 
tragedy, and we have seen what wonderful success she has drawn 
from that tragedy. So she is an inspiration to many of us, and 
I welcome her here today.
    Chairman Leahy. Thank you.
    Ms. Burke, please go ahead.

   STATEMENT OF ANN BURKE, RN, M.ED., PRESIDENT AND FOUNDER, 
  LINDSAY ANN BURKE MEMORIAL FUND, SAUNDERSTOWN, RHODE ISLAND

    Ms. Burke. Chairman Leahy, Ranking Member Sessions, and 
distinguished members of the Committee, thank you for the 
opportunity to testify today on the importance of creating 
awareness on the issue of dating abuse and prevention education 
efforts. I appreciate the opportunity to share my daughter 
Lindsay's story and the positive legacy that has come from her 
loss.
    My husband, Chris, is here today and, as Senator Whitehouse 
mentioned, we are members of MADE, Moms and Dads for Education 
to stop dating abuse, a group that we co-founded along with Liz 
Claiborne. We advocate nationally that all middle and high 
schools teach a dating violence curriculum.
    Today, I would like to tell you about my lovely daughter, 
Lindsay. She could easily be described as ``the girl next 
door.'' She grew up on a small street in the suburbs, knowing 
the neighbors, playing with all the children in the 
neighborhood. She had plenty of friends, took dance lessons, 
piano lessons, played soccer, tennis, and graduated from St. 
Mary's Academy and Rhode Island College with a degree in 
elementary and secondary education. Her many friends would 
often describe her as having a sweet and compassionate nature.
    My daughter met her killer by chance at a wedding. In this 
2-year relationship, her father and I noticed things in Lindsay 
that did not seem quite right, including a change in her 
personality, but we did not know the cause at first. As the 
police would later describe, it was a classic case of abuse and 
that every form of abuse--verbal, emotional, sexual, and 
physical--was used.
    Let's not overlook the strong correlation between stalking 
and intimate-partner violence--intimate-partner murder, excuse 
me. Until after Lindsay's death, I did not know that 76 percent 
of women murdered by an intimate partner had been stalked by 
that intimate partner, but only about half of stalking victims 
recognized the crime for what it was. Lindsay was no exception. 
After Lindsay left the boyfriend for the third time and was 
living with my son and his wife, she got calls constantly from 
him, according to cell phone records, more than 20 hours a week 
worth of calls. She was fearful and anxious. Earlier, he had 
threatened to kill her.
    She had the support of friends and family. Yet, after 
leaving him and trying to start a new life, Lindsay's life 
ended almost 4 years ago, when she was only 23 years old. The 
police statements and autopsy showed that she was brutally 
tortured and murdered by her ex-boyfriend. As Rhode Island 
Attorney General Patrick C. Lynch said after the sentencing, 
``I am hopeful that Lindsay's death will provide lessons for 
our teenagers that will prevent others from being victimized by 
dating violence.''
    After Lindsay's murder, I spent many painful months 
researching this topic. Given the alarming statistics for 
dating violence, I began to wonder: Why don't we require 
educators to teach our children about the importance of healthy 
relationships and prevention of dating and domestic violence?
    Over and over I asked myself, ``If Lindsay was properly 
educated about this major health issue in health class, would 
she still be alive today? '' I believe she would. I never 
learned about it while pursuing my degrees in nursing, 
secondary education, or my graduate degree in health education. 
As a result, in my 24 years of being a school nurse and health 
teacher in a middle school, I never addressed it with my 
students. I have since learned that my lack of education on 
this topic is more the norm in our country rather than the 
exception. As a teacher, I realized we have school policies for 
bullying and sexual harassment, and we teach our students and 
our staff about these issues. I strongly believed that the same 
needed to be done for dating violence.
    I believe that if my daughter was taught about dating 
violence from middle through high school and if we as parents 
knew all the facts as well and reinforced this information at 
home, she would still be with us. Having known Lindsay, a 
confident and assertive young lady who always spoke her mind, 
who did not hesitate to change friends in high school when some 
of them started drinking alcohol, who did not hesitate to seek 
help from her guidance counselor when needed, and from the 
school principal when she thought something unfair was 
occurring, wouldn't she have been more careful about a safety 
plan and seeking proper help if she had heard about all of this 
before and had some frame of reference in her mind from prior 
learning? Knowing my daughter, I believe she would have been. 
And now we will never know for sure.
    How many more daughters have to lose their lives at the 
hands of an abusive partner? How many more teens have to suffer 
in an abusive relationship, fearing for their lives, and yet 
afraid to tell anyone? The teen dating violence statistics are 
alarming. Teen dating violence is a major health problem that 
leads to other health problems: substance abuse, eating 
disorders, depression, suicide. Recent research has found a 
strong connection between violence among young people and poor 
reproductive health outcomes. A study published in the Journal 
of the American Medical Association found that one in three 
U.S. high school girls who has been abused by a boyfriend has 
become pregnant. By reducing dating violence, we can reduce 
unintended teen pregnancies. The psychological effects on its 
victims are also devastating--devastation I know all too well. 
Dating violence, the same as domestic violence, destroys and 
kills people. How can we ignore this major health problem any 
longer?
    In 2006, my family founded the Lindsay Ann Burke Memorial 
Fund to address dating violence primarily through education. 
Through our workshops, we have trained 224 health teachers from 
89 schools in Rhode Island. We have donated over $40,000 worth 
of curriculum to these schools, and through our workshops for 
general school staff we have trained well over 1,000 teachers 
so far.
    More recently, Rhode Island legislators showed foresight 
and took a stand by passing the Lindsay Ann Burke Act with the 
support of Attorney General Patrick Lynch. Rhode Island now 
mandates annual dating violence education for students in 
grades 7 through 12 through our comprehensive health education 
curriculum, training in this topic for school staff in middle 
and high schools, a school district policy to address episodes 
of dating violence at school and at school events, and the law 
strongly recommends parent training.
    Episodes of dating violence at school in Rhode Island will 
no longer be ignored. Teens, school staff, and parents will now 
get the education on this topic that they rightfully deserve. 
An interesting thing happens when you educate all three 
groups--teens, school staff, and parents--at the same time. 
Everyone begins to talk openly about this topic, removing the 
shame and stigma that now exists. This helps teen victims to 
come forward and seek help; it gives teens the knowledge and 
skills to help each other; and it helps parents to reinforce 
this information at home with their teens and watch for signs 
of unhealthy relationships. And abusers, once educated, may 
think twice about their own behavior and seek ways to change.
    Since passage of the Lindsay Ann Burke Act in Rhode Island, 
we have gotten support from both the National Association of 
Attorneys General and the National Foundation for Women 
Legislators. They have partnered with us in our effort to 
support Lindsay's law and to pass dating violence education in 
all States. As a result of their efforts, several States have 
passed laws, with bills pending in other States. However, I 
want to point out that some have been watered down due to lack 
of funding for implementation.
    Funding and leadership from the Federal level is needed for 
comprehensive dating violence education for all teens. The last 
VAWA bill created the STEP program--Supporting Teens through 
Education and Protection Act--that would support training in 
schools, but it has never received funding. This funding is 
exactly what States and school districts need to implement 
dating violence education laws.
    And this is more critical in light of a survey released 
this morning by the Family Violence Prevention Fund and Liz 
Claiborne that says American teens are experiencing alarmingly 
high levels of abuse in their dating relationships. At the same 
time, the survey found parents are out of touch with the level 
of teen dating violence and abuse among their teens. The large 
majority of abused teens are not informing parents, and even 
when they do, most stay in abusive relationships. This 
highlights the need to start funding for STEP. To do anything 
less is selling our children short. We should not delay.
    [The prepared statement of Ms. Burke appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Our next witness is Collene Campbell. She is the current 
National Chair of Force 100 and a sitting member of the 
National Institute of Corrections Advisory Board. She formerly 
served as mayor of the city of San Juan Capistrano, California. 
She has endured tragedy several times in her life: the murder 
of her son, the murder of her brother. Her experiences have 
made her a leading, widely respect victims rights advocate 
nationwide.
    Ms. Campbell, thank you. I know this is not an easy thing, 
but I appreciate your being here.

 STATEMENT OF COLLENE CAMPBELL, NATIONAL CHAIR, FORCE 100, SAN 
                  JUAN CAPISTRANO, CALIFORNIA

    Ms. Campbell. Thank you. Thank you so much, Mr. Chairman 
and Senators. Thank you for the opportunity to allow me to 
address you today. You are right. It is not easy, but it is 
worth it if it helps.
    The Violence Against Women Act has been a very important 
addition to help strengthen our Nation's ability to assist 
women who are victims of terrible sexual acts and physical 
violence. However, that Act standing alone does not provide 
enough necessary means to address the crimes and their victims. 
Facing reality, our criminal justice system lacks due process 
and basic common sense. We certainly acknowledge resources 
alone are not sufficient to bring true justice, but they help?
    There are huge issues in our justice system that have and 
will continue to affect hundreds and thousands of families just 
like mine. The sad truth is my family members and many others 
would be alive today if our justice system worked like it was 
intended to, like we planned for it to, like it should. But, 
instead, sadly, in our home our only son, brother, and sister-
in-law are all dead, all murdered.
    Chairman Leahy. Take your time.
    Ms. Campbell. To adequately judge its importance for our 
Nation's decisionmakers--this makes me so mad because I am such 
a told old broad, and it makes me so mad because when I want to 
be really tough, I am not. And I know my husband is watching, 
and that really ticks me off.
    [Laughter.]
    Chairman Leahy. Ms. Campbell, let me tell you, you are 
being as effective a witness as I have seen in 35 years. Don't 
let it bother you a bit.
    Ms. Campbell. God bless you. Thank you, sir.
    But to adequately judge what is going on, it is important 
for you, our national decisionmakers, to try and personally 
identify with the tragedy of the crime and the truth and 
reality of what victims are forced to endure. It really stinks.
    You have taken on the huge responsibility of the most 
important job in our Nation: the safety of our citizens. And it 
is critical to the American people that you fully understand 
the truth and what is going on.
    We must have predictable sentencing and keep dangerous 
criminals behind bars. It is critical to have rapid access to 
DNA to save lives and save precious time for law enforcement 
and our crowded courts. It is also important to have victims 
present and heard at all proceedings. They know too much to 
keep them out of the courtroom.
    I realize that it is more than important, and it is 
impossible in just a few moments to bring to you the real world 
of being a victim of crime. It is not a great thing, and by 
gosh, we have got to stop it.
    For a quarter of a century without a break, my family has 
been through living hell. The hell was furnished firsthand by 
the killers, the criminals who should have remained in prison. 
Then more hell was distributed by the justice system. If our 
justice system had worked properly, along with many others, my 
murdered family would be alive today.
    In 1982, our only son, Scott, just disappeared from the 
face of the Earth. We frantically looked for him for 11 months. 
Two parolees had stolen his expensive sports car and decided if 
both the car and our son were missing, they would never get 
caught. The killers' statement to the undercover agent was, 
``We took him for an airplane ride, strangled him, and threw 
him into the Pacific Ocean where the sharks would eat him and 
he wouldn't be found.''
    Senators, what if the killers had been given three 
indeterminant life sentences and was released in only 4 years? 
The other killer was out on work furlough after killing 
somebody else.
    You see, both of these criminals had been given another 
chance. They were given their chance. But, Senators, we never 
have another chance to see our son. But we are still going 
through the 8 years of our son's murderers' trial where we were 
excluded from the courtroom.
    My only sibling, auto racing legend Mickey Thompson, and 
his wife, Trudy, were also murdered. It took another 19 years 
to get those killers convicted.
    From the very beginning, I was certain who had killed 
Mickey and Trudy, and naturally, there were attempts on my life 
so they would not be brought to justice. However, let me tell 
you, Senators. I am the proud daughter of a wonderful man who 
was captain and chief of detectives in the Alhambra, 
California, Police Department. And at a young age, he taught my 
brother and me how to have courage and always do the right 
thing. And I am a hell of a good shot, by the way. Not too many 
victims have self-defense training and are able to survive a 
quarter of a century of murderers wanting to take them out 
because they are trying to bring justice.
    I respectfully ask you to please place yourself in the 
decision that many of us have been forced to endure, and only 
then will you understand the best steps to take to provide for 
better safety for our citizens. And I thank you for allowing me 
to sit up here and slobber all over myself. And I guess it is 
because I flew most of the night and I am really tired, but I 
wanted to be here because I never want other people to have to 
endure what some of us have gone through.
    Thank you, Senators.
    [The prepared statement of Ms. Campbell appears as a 
submission for the record.]
    Chairman Leahy. Ms. Campbell, I am glad you took that 
flight. I am sorry for what you endured before that. You have 
four former prosecutors sitting on this panel here.
    Ms. Campbell. I know that. Bless you.
    Chairman Leahy. Senator Sessions, myself, Senator 
Klobuchar, and Senator Whitehouse. The things you have 
described should never happen to any victim. The crimes should 
not have happened in the first place. The delays and everything 
else after that never should have happened. We are trying in 
every way possible to get the resources, the training, the 
steps Ms. Burke has in her own--with the law in Rhode Island. I 
mean, these are--well, I think of the murder cases that I 
prosecuted, and 75 to 80 percent of them, had steps been taken 
earlier, they would have been avoided. There is nothing more 
tragic than being at a murder scene at 3 o'clock in the 
morning, blue lights flashing, people sobbing, and to have the 
``if only'' or the ``what if'' or the other things. So thank 
you for what you said. You put a human face on what so many of 
us have seen in the past. Thank you.
    Ms. Campbell. Thank you.
    Chairman Leahy. Sally Wells is the Chief Assistant to the 
Maricopa County Attorney in Phoenix. She helps to oversee an 
office of more than 350 attorneys, more than 900 support staff, 
and supervises the operation of the civil and prosecution 
divisions within the office. She has been an attorney in 
Maricopa County for 23 years. She received her bachelor's 
degree from the University of Virginia and her law degree from 
Arizona State University.
    Ms. Wells, please go ahead.

 STATEMENT OF SALLY WOLFGANG WELLS, CHIEF ASSISTANT, OFFICE OF 
         THE MARICOPA COUNTY ATTORNEY, PHOENIX, ARIZONA

    Ms. Wells. Thank you, Mr. Chairman, members of the 
Committee. Thank you very much for allowing me the opportunity 
to present the views of the Maricopa County Attorney's Office 
concerning the continued importance of the Violence Against 
Women Act and more specifically, about the value of mandatory 
minimum sentencing for sexual assault and sexual abuse as well 
as prompt DNA and HIV testing in cases of sexual assault and 
sexual abuse.
    The Maricopa County Attorney's Office is located in 
Phoenix, Arizona, and as you said, it employs more than 350 
lawyers, prosecutors who prosecute more than 40,000 felonies a 
year. As a 23-year veteran of the office and as Chief 
Assistant, I have prosecuted domestic violence cases, sexual 
abuse cases, and I currently oversee the specialized bureaus 
that focus on prosecuting those crimes.
    Sexual violence causes lasting trauma to victims beyond 
physical injury. In many cases, these crimes go unreported due 
to the fear and trauma associated with sexual violence--fear of 
retaliation from the offender and fear of public scrutiny. In 
our experience, it is not uncommon for a sexual offender who is 
finally caught to admit to other sexual assaults that were 
never reported. In a 2004 statewide study in Arizona, it was 
estimated that only 16 percent of all sexual assaults ever came 
to the attention of law enforcement.
    With respect to the fear of public scrutiny, the value of 
education cannot be underestimated. The dissemination of 
accurate information about sexual offenders and their victims 
is essential to change public attitudes about these crimes so 
that victims do not suffer embarrassment or humiliation when 
they report sexual abuse. One message that should be clear in 
any statutory scheme and that should be part of any educational 
effort is that sexual violence is one of the most serious of 
crimes. The punishment associated with sexual violence should 
be commensurate with the damage that it inflicts. A mandatory 
minimum sentence of incarceration does send that message.
    With respect to the fear of retaliation, victims suffering 
the physical and emotional trauma of sexual abuse and assault 
need to know they are safe from the person who hurt them. They 
need a time to heal. For at least some period of time, victims 
need to know that the offender cannot return to inflict more 
pain or punish them for reporting the crime to authorities. A 
mandatory minimum sentence of incarceration sends that message.
    Arizona's statutory scheme does send that message. Sexual 
assault is a class 2 felony, the second highest class felony. A 
person who is convicted of sexual assault in Arizona is not 
eligible for probation. A person convicted of sexual assault is 
exposed to a presumptive sentence of 7 years in prison. If 
mitigating factors exist, the sentence may be reduced to a 
minimum of 5.25 years in prison. And if aggravating factors are 
found, the sentence may be increased to 14 years in prison. In 
every case, a victim may expect the offender to be in prison 
for at least 5 years, and that 5-year window of safety not only 
encourages reporting and participation in court proceedings, it 
also gives the victim time to heal without fear of retaliation.
    In 2005, Arizona moved away from classifying sexual assault 
of a spouse as a lesser crime than sexual assault. As part of 
that debate, I was asked by the legislature to provide some 
information about the effect such a change might have on 
reporting. Some of our legislators were concerned that the 
higher penalties associated with sexual assault might 
discourage reporting. In looking at the past reported cases, 
the crime of sexual assault of a spouse was often accompanied 
by more serious offenses, like kidnaping, which is a class 2 
felony, or aggravated assault, a class 3 felony. The belief 
that a lower penalty would encourage reporting for sexual 
assault of a spouse--or, if you want, that a higher penalty 
would discourage reporting--was not supported by the evidence.
    Another important component in dealing with the crimes of 
sexual assault and sexual abuse is biological testing. Along 
with the need to know that they are safe from any diseases that 
offenders may have transmitted to them, they need the assurance 
that they are safe from those diseases. There are several 
arguments for early biological testing of suspects. And 
although I am not a medical expert, prosecutors generally 
accept that if a victim reports significant exposure during a 
sexual assault within 72 hours of the assault, doctors can 
prescribe a 28-day regimen that will help the victim and help 
prevent the contraction of HIV. The sooner this regimen is 
begun, the more effective it is.
    The medication to prevent HIV infection is expensive, and 
it may cause serious side effects. Victims who do not know 
whether the attacker had HIV are forced to choose between the 
risk of HIV infection and the risk of side effects associated 
with the prophylactic treatment. Those side effects could 
include liver enlargement or bone marrow suppression. 
Information from prompt offender testing would alleviate the 
uncertainty in making that choice. Information that the 
offender did not have HIV would allow the victim to feel safe 
and begin to heal.
    In addition to biological testing to ensure the safety of 
the victim, another kind of testing plays a vital role in the 
investigation and prosecution of these crimes. DNA testing of 
the suspects ensures that suspects are identified as early as 
possible. As I mentioned before, many sexual assaults by the 
same suspect go unreported. Others are reported but the 
suspects are unknown. Sexual offenses are often repetitive 
crimes. The ability to link these crimes to specific 
individuals early and to specific geographic areas helps law 
enforcement to put an end to serial offenses sooner.
    Sexual offenders are often linked to other types of crimes 
like burglary, criminal trespass, or other types of felonies. 
DNA evidence is important to create an accurate criminal 
history for suspects. It also eliminates suspects so that law 
enforcement resources are not wasted.
    DNA sampling and testing also brings relief to victims who 
have lived for years----
    Chairman Leahy. Ms. Wells, I am sorry to interrupt. We will 
put the rest of your statement in the record. There is going to 
be a roll call vote very soon, and I am trying to make sure 
that we all have a chance for questions.
    Incidentally, when you were talking about the HIV testing, 
you probably noticed Senator Sessions and I whispering to each 
other. This is something we both strongly believe in, not only 
for being able to go on the regimen of medication that you 
talked about, but to be able to avoid it if it is unnecessary 
and for the peace of mind. Lord knows there is enough things 
that are going through a victim's mind to begin with, but that 
is one that might be eliminated.
    [The prepared statement of Ms. Wells appears as a 
submission for the record.]
    Chairman Leahy. Ms. Union, your story--and I am sure it is 
painful to tell, but if you could talk about the effect, and it 
should be heard. Go into a little bit more about what you said 
in your statement that fortunately you were in a community that 
could afford to do the right things. How important is that, not 
just the things that might help catch the perpetrator, but I 
think you are referring also to the counseling that goes along 
with that? Do you want to elaborate on that a little bit, 
please?
    Ms. Union. Definitely. The main difference in a wealthy 
community like the one I was raped in is that the system kicks 
in immediately. The rape crisis center is well staffed, so that 
means whether it was me or someone who speaks Spanish or 
Tagalog or Cantonese or Mandarin, there would have been someone 
there who could have translated, which is different if you are 
in an ethnic enclave community where that rape crisis center 
might not have a translator. Rural communities also suffer from 
the same sort of thing, crimes that happen on Native American 
reservations, urban communities, they do not have the same 
access to translators, to therapists, to counselors. A lot of 
States do not even offer free HIV and STD testing. That was 
covered.
    As much as I would love to test all the suspects, I am a 
little bit more concerned about the victims. So I would rather 
prioritize that money to offer free testing for HIV and STDs 
for victims immediately. That is what happened to me, but I was 
also raped in a very wealthy community that could afford to do 
that.
    It is those kinds of differences that took me from rape 
victim to rape survivor, and I was able to be an active 
participant in the criminal justice system that allowed me to 
help apprehend the suspect in a timely fashion. It was not 
within 48 hours, so that would not have really helped in my 
case, but in a timely fashion, it helped, you know, get him off 
the streets. And without the funding for rape crisis centers in 
all communities, you sort of create a parallel universe of 
justice where only, you know, a few, specifically who are raped 
in wealthier communities, are going to get the justice and the 
treatment.
    So it is great to have somebody behind bars, but if you 
cannot get on your path of recovery and reclaiming your dignity 
and your integrity and getting your mental health issues in 
check, you have been left as a shell of a person. And it is 
very important to have those rape crisis centers, you know, 
well staffed and well funded and properly trained.
    Chairman Leahy. Let me follow up on that with Ms. 
Tronsgard-Scott. I live in a town of 1,500 people. It is rural 
enough, I live on a dirt road, and my nearest neighbor is half 
a mile away. Not unusual in parts of Vermont, not unusual in 
parts of California. Rural California can make rural Vermont 
look like an urban area. What about in those areas? If 
something happens in a very small town in Vermont or a very 
small town in California, what is available? I would assume not 
what Ms. Union had available to her.
    Ms. Tronsgard-Scott. Well, I would think that is a very 
accurate description of rural Vermont and probably rural areas 
throughout the country, Chairman Leahy. You know, the reality 
of being a victim of domestic violence or sexual assault in a 
rural area is that help is sometimes miles and miles away. 
There are certainly barriers to finding transportation. Also, 
in Vermont, our rural communities are small communities, and 
one of the things we love about living in a small community is 
it is very tightly knit. People know each other. They are often 
related to each other. But this also can create a situation 
where victims feel that they cannot come forward because of the 
relationships that they have with the people living around 
them.
    I have talked to many victims who have been living in rural 
communities in both Vermont and in Ohio, where the law 
enforcement person in their town was actually the brother of 
their perpetrator. And so there are real problems for victims 
living in rural communities because of the nature of the towns 
and outlying areas where they live.
    The other factor, you know, is that in domestic violence in 
particular, victims are often isolated by their perpetrators in 
many ways. They are isolated socially from their families and 
their friends. They are isolated economically from jobs and 
access to family assets. But in rural areas, they are isolated 
geographically. They may live in very, very rural 
circumstances. I have certainly had the experience of visiting 
victims of domestic violence and having driven through creeks 
to get to the place where I was meeting them.
    So rural conditions are incredibly difficult for victims 
and offer--the challenges are huge.
    Chairman Leahy. Thank you. My time is up, but I want to 
say, Ms. Burke, the Lindsay Ann Burke Act, I agree with Senator 
Whitehouse, is a great achievement, the education that is 
necessary.
    Ms. Burke. Thank you, Senator. I appreciate that.
    Chairman Leahy. It would have been very easy for you and 
your husband to just say that is it, we have had a tragedy, we 
are shutting off the rest of the world. But, instead, you are 
helping people.
    And, Ms. Campbell, you were married in 1951. I was married 
in 1962. It does not seem that long ago anymore. But I also 
want to applaud the bravery of both you and your husband. 
Again, these are all things where it would be so easy to just 
run away and not refer to it anymore. Instead, you have been 
very helpful to this Committee, and that is extremely 
important.
    Ms. Campbell. Senator, I appreciate your thoughtfulness and 
your kindness. It means a lot. You are very special. You always 
have been.
    Chairman Leahy. Thank you very much. And, Ms. Wells, thank 
you for being here. I am going to turn over the questioning to 
Senator Sessions, and I am going to turn the gavel over to 
Senator Klobuchar.
    Senator Sessions. Ms. Wells, Ms. Campbell described 
individuals, murderers, who had previous records that she 
rightly believes should have been in jail and not able to 
commit these kind of crimes again. Let us pursue that a little 
bit. You are a professional, and you have been at this a long 
time. And I have come to believe that mathematics is a factor 
in all of this, that there are just not that many people that 
sexually assault women. And there are a certain numbers of 
those that are repeat offenders who are exceedingly dangerous.
    Just from a purely public safety point of view, is it 
important we identify those persons early, and that they be 
incarcerated in order to protect the people of this country 
from this kind of violence?
    Ms. Wells. Well, Senator, you said it as well as I could 
say it. Yes, that is critical. And there are a lot of studies 
already that are helping us to identify those persons. And as 
soon as we can identify them, then our goal should be to 
incarcerate them for as long as possible, because----
    Senator Sessions. Now, you represent a very sophisticated 
department. You have been at this a long time. You personally 
try these kind of cases. So I know you are really an expert in 
it. Do you think that there are other department of district 
attorney offices, young prosecutors, or maybe young police 
officers, who deal with one of these cases and are not aware 
sufficiently to identify a person who may be a highly dangerous 
offender that needs to be given as long a sentence as 
appropriate under the law? Do you think we are missing some 
people and that is causing additional crimes that could have 
been avoided?
    Ms. Wells. I do, and I agree with one of my colleagues who 
said there is a new generation of police officers and 
prosecutors coming who have not had the education that I have, 
and it is important to keep the continuity of that education 
and to keep doing the studies that help us identify those 
offenders. And, of course, I believe that DNA testing is one of 
the tools we have to identify people early.
    Senator Sessions. Tell me about the DNA. In a sexual 
assault case, how important is it that DNA be determined and 
maintained for potential future use? How does that work to 
solve crimes and prevent crimes?
    Ms. Wells. Well, anyone who watched television knows DNA is 
a very useful tool in identifying suspects, and it can be 
preserved for a long time. Arizona recently passed legislation 
that requires DNA evidence to be held for at least 35 years, 
and that legislation was introduced by victim groups because, 
as we heard today, many sexual assaults are not reported or 
they are reported much later than they occurred, and the 
offenders may not be identified for many, many years. But the 
closure, the ability to find out who the culprit was, who the 
offender was, and to find out maybe that they are in prison 
somewhere else because they have been doing this over the 
course of their offender career, if you want to call it that, 
is very important to victims.
    Senator Sessions. Ms. Union, the person that assaulted you 
sexually assaulted a person later that same day. Is that 
correct?
    Ms. Union. No; a couple days later.
    Senator Sessions. A couple of days later. So if you did not 
identify that person, the DNA that was obtained immediately, 
the investigators would know it is the same rapist. Is that 
correct?
    Ms. Union. That is correct.
    Senator Sessions. And if they had had a previous arrest for 
rape and you had that on record, you would know exactly who 
that person was.
    Ms. Union. That is correct. And as we heard today as well, 
it is important to have data bases so that law enforcement 
agencies in different jurisdictions can identify a single 
offender who----
    Senator Sessions. What is your opinion, Ms. Wells, on what 
other departments are doing with regard to maintaining DNA 
around the country? Do you have any idea how well other 
departments are maintaining DNA in these types of sexual 
assault cases?
    Ms. Wells. I do think more and more States are passing 
legislation to make sure DNA is collected early, that it is 
collected from a broader range of suspects, not just suspects 
who commit sexual crimes. There are a number of crimes that 
seem to be precursors or associated with sexual crimes, like 
burglary, petty theft, other kinds of felonies like that. Many 
States are expanding their DNA testing to those offenders as 
well so that, like I said, if we can identify them early and 
stop even one sexual assault, it is worth it.
    Senator Sessions. I could not agree more. Ms. Campbell, 
thank you for your testimony. Ms. Burke, thank you for your 
work. I wish we had more time to talk about it, but I think you 
are touching on an extremely important societal problem that we 
face, and I am glad that you are showing that leadership. And 
all of you, thank you for speaking up and being effective on 
these issues.
    We have had--Ms. Campbell, you were part of the movement of 
victims rights, and it has really changed the law enforcement 
mechanism. I think that is one reason murders are down 
substantially from what they were in the 1980's when you lost 
your family members. And I do warn, however, that I sense about 
a movement that is beginning to go soft on the lessons we 
learned, and it simply is this: Certain people are dangerous. 
The fact they attacked one person is very indicative that they 
may attack another one. And we do have to maintain tough 
sentences. I wish it were not so, but we have to for certain 
dangerous offenders.
    Thank you, Madam Chairman, and it is a pleasure to work 
with you.
    Senator Klobuchar. [Presiding.] Well, thank you very much.
    Senator Sessions. I have also enjoyed your great leadership 
on our delegation to Canada with the United States-Canadian 
interparliamentary. It was a fabulous group, and you did a 
great job as our leader.
    Senator Klobuchar. Thank you. You did pretty well singing 
with the fiddler, Senator Sessions.
    [Laughter.]
    Senator Sessions. I will not reveal more. There were a lot 
of negotiations with Canada.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Ms. Burke, you have done such good work in this area. As we 
look to Rhode Island as a potential national model here, what 
further feedback would you give us on what elements of the 
Lindsay Ann Burke programs have been best received, have been 
most effective? What are the lessons learned from what you have 
done that you think Congress should focus on?
    Ms. Burke. I think the lessons learned have been the need 
for funding. The implementation of the law is working in Rhode 
Island mostly because our organization and the Rhode Island 
Coalition Against Domestic Violence, from even before we had 
the law passed, stepped up to the plate and said that we would 
be willing to provide free training for school staff so that 
there was no funding attached to the bill when it was passed in 
Rhode Island.
    However, the drawback in other States is that what we are 
finding is that many States have good intentions, but they are 
very concerned, especially in these hard economic times, about 
the cost of training school personnel. In fact, I have gotten 
calls even this week from the State of Ohio, from New Mexico, 
asking, you know, how we implemented Lindsay's law, what were 
the specifics, and what was the cost involved.
    I think for it to be successfully implemented in other 
States, we have to have funding. There is no way of getting 
around that. I also believe very strongly as an educator that 
we need to pass Lindsay's law maintaining all the components of 
the law. It would be a very severe drawback to educate the 
students and not have the staff educated at the same time. 
Also, I think that we would not want to leave our parents out 
of that equation either. I think that you need to educate all 
three at the same time.
    I do not think it takes a great deal of funding, not as 
much as perhaps most people would imagine, because once your 
staff is educated and your health teachers or whatever teachers 
are designated in other States--not all States require health 
education, but what other teachers are designated in other 
States to be the primary teachers of the students, once you 
have that training done, it only has to be done sporadically 
for new hires. And that even can be incorporated at the college 
level, in their college education program for student teachers.
    Senator Whitehouse. But you at least want enough funding 
for the program to be persistent year to year.
    Ms. Burke. Persistent, correct. I think initially you will 
probably need a substantial amount of funding, and after that 
in time, that number should drop down so that it could just be 
maintained.
    I have seen firsthand the success. Two of my own former 
students have come back to me at different times, one who went 
on to a private high school and one who went on to our public 
high school, and after learning about it at the middle school, 
they did find themselves in those types of situations, due to 
the nature of an abusive relationship, they were not aware at 
the beginning. In one case, the student themselves after a 
while recognized the warning signs and was able to get herself 
out. In the other case, it was the friends who also had the 
educational piece in eighth grade who recognized the signs, and 
they worked with their friend to get them out.
    I know the education works. There is no doubt in my mind, 
and I think that all students have a right to that education. I 
think to deprive them of that education is simply wrong. We can 
save lives. I was talking to Catherine Pierce last evening. I 
think it is even going to be difficult to measure how many 
lives we are saving. Many people will not come forward and tell 
us. Long after they graduate--they are learning--when we teach 
this education, we are teaching them life skills. It is no 
different than anything else that we teach in health class. We 
teach them about heart disease prevention. The chances of them 
becoming involved in an abusive relationship in high school are 
far greater than them developing heart disease in high school.
    Senator Whitehouse. Well, thank you for what you have done. 
I recall in 1999, I think it was, when I was Attorney General, 
my Juvenile Justice Task Force did a film in high school and 
distributed it to all the high schools and all the police 
departments, but that program did not meet the test of 
persistence, so I will take that lesson from you today.
    Ms. Burke. In fact, I was talking to Reley, and I was 
trying to find that tape to see if we could duplicate it and 
hand it out to all of our schools again.
    Senator Whitehouse. One very quick question in my last 
seconds for Ms. Wells.
    Senator Klobuchar. You can take your time, Senator 
Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    When it comes to testing suspected perpetrators of sexual 
assault and obtaining DNA samples, what level of suspicion do 
you recommend be reached before the testing can take place? Do 
you require full probable cause or more of sort of a clearly 
articulable suspicion, a Terry stop standard? At what point 
would it be appropriate to require DNA testing in the spectrum 
of suspicion from we have no idea, round up the usual suspects, 
to we have a victim who has identified who their perpetrator 
was and we know who it is? There is a wide band of suspicion. 
At what point should this kick in?
    Ms. Wells. In our State--and I agree with this--the 
standard is probable cause, and that is the same standard that 
police use when they make an arrest.
    Senator Whitehouse. An arrest.
    Ms. Wells. And we also have a statute that allows DNA 
testing for certain crimes, not every crime, upon arrest or 
charging by a prosecutor, and----
    Senator Whitehouse. So, again, a probable cause standard.
    Ms. Wells. Yes, there is at least probable cause that the 
offender did commit the offense.
    Senator Whitehouse. And that is adequate for your purposes?
    Ms. Wells. I believe that is a fair balance.
    Senator Whitehouse. Very good. Thank you, Chairman. Thank 
you. This is a wonderful panel of witnesses, I have to say.
    Senator Klobuchar. All right. Thank you.
    I just wanted to also give my thanks for the courage, to 
you, Ms. Union, and just the way you told that story. It is so 
clear you are now a survivor in how you told it. And to you, 
Ms. Burke, for the great work you are doing. And, Ms. Campbell, 
I know your husband was proud of you when he watched you. You 
know, you just showed him. I would not worry about that at all.
    Ms. Campbell. Thank you.
    Senator Klobuchar. Anyway, thank you for your work.
    I wanted to follow up on a few things that some of the 
other Senators asked. First, to Ms. Wells, my colleague Senator 
Sessions was asking about DNA, which is, you know, so 
incredibly important right now. One of the things that I have 
found recently in the last 10 years--we call it the ``CSI 
effect"--is that juries are actually expecting to have DNA. And 
sometimes you may have a sexual assault that does not have DNA, 
or you may have a domestic abuse case that most likely may not 
have DNA. And we actually lost a case or two, some smaller 
cases, because the jurors actually said later, ``Well, why 
wasn't there DNA? '' They agreed with the defense lawyer on 
this, and so that is when we got the right to rebuttal, 
actually, and our State was the last one, where the prosecutors 
had the last word, and we got that changed.
    But do you want to comment on that, just evidentiary 
changes that have allowed--I know one of the big issues a few 
years back was allowing us to go forward with domestic abuse 
cases when the victim would not even testify because we had 
other evidence from the scene. And just what you have seen in 
the development of either laws or evidentiary techniques, 
technologies to help with those cases where you do not have 
DNA.
    Ms. Wells. You are absolutely correct. Juries expect some 
kind of forensic evidence, and especially DNA, in cases of 
sexual 
assault. In fact, that is probably the crime where the CSI 
effect is really----
    Senator Klobuchar. Just to define this, the CSI effect, for 
everyone, is that juries expect this and, if they do not have 
it, they may think that the person is not guilty.
    Ms. Wells. That is correct. They think that there is a new 
threshold now. In the old days, we could present a witness who 
would identify the defendant, there was no DNA, and we were 
able to obtain convictions for sexual assault. Now, and in our 
State, jurors are allowed to ask questions during the trial, we 
get pages of questions: Was DNA done? Why wasn't it done? And 
sometimes because DNA is a complex chemical analysis, the 
questions get very detailed, and some jurors ask very, very 
complex medical questions during the trial of a sexual assault 
case.
    So it is very important, though, not to lose sight of the 
fact that if you do not have DNA, you still have to fall back 
on all of the things we learned when we prosecuted sexual 
assaults before. Interview as many people as possible. It is 
very useful to tape-record interviews. It is very useful to get 
other kinds of evidence that corroborate what the victim has to 
say. Even if you do get DNA, you should not stop there. You 
should continue to get all of that evidence, because you do not 
know, maybe the DNA will not be admissible later on. But it is 
still critical to investigate these crimes as thoroughly as 
possible.
    Senator Klobuchar. Thank you.
    Ms. Tronsgard-Scott, one of the things you talked about was 
kids at the scene and kids living in the home. I remember the 
statistic I always used to use was that a kid growing up in a 
violent home where there was domestic abuse was something like 
76 times more likely to commit crimes themselves. In fact, we 
had a picture in our office when you came in of a woman with a 
Band-aid on her nose holding a baby, and it said, ``Beat your 
wife, and it is your son who will go to jail.''
    Do you want to talk about any advances that have been made? 
I know that there has been more interaction with Child 
Protection, bringing them in so that kids get help when they 
live in a home, and also obviously kids can be witnesses, too, 
and what has been happening with that, and as we look at the 
VAWA reauthorization, if we should be looking at this aspect of 
it as well.
    Ms. Tronsgard-Scott. Thank you, Senator. Thanks for the 
opportunity to talk about children living in violent homes. I 
agree with you, kids are at particular risk. The statistic that 
I use is that kids living in violent homes are 300 times more 
likely to be abused themselves, which I think is incredibly 
distressing. So kids growing up in violent homes not only are 
more likely to commit violent crimes as adult, but it is likely 
that they themselves have been abused. And, of course, from my 
belief system, a child that is witnessing domestic violence is 
suffering from abuse.
    So there have been great strides made, and I can talk about 
Vermont.
    Senator Klobuchar. That is fine.
    Ms. Tronsgard-Scott. In Vermont, I am, of course, very 
proud of Vermont and the work we have done working with our 
children. Our rural grant in Vermont, as I referred to in my 
testimony, has created the opportunity for us to create a 
unique and innovative relationship with our Children'S 
Protective Services Division of our State government, and what 
we did was we were able to provide intensive training for child 
abuse investigators in that unit, and so now they are experts 
at working with victims of domestic violence and their kids.
    In many cases, victims of domestic violence in the past 
were almost held accountable for the abuse that their children 
were suffering at the hands of their abusers. But in Vermont, 
this innovative program allows investigators to go in and do an 
investigation, and instead of blaming the victim for the abuse 
that the kids are suffering, they work with the victim to be 
able to provide them with the supports that they need to be 
able to make choices about living in a safe, peace-filled home.
    Senator Klobuchar. OK, very good.
    Ms. Union, you did such a good job of talking about how--
you said it so directly, how the fact that you had been raped 
in an area that had the resources, and that very much resonated 
with me because I have just seen that in smaller counties that 
do not have the resources, they just may not have the expertise 
sometimes in cases, or you have, like you said, a rape crisis 
center that does not have the resources in some areas.
    I brought up earlier with Ms. Pierce that issue of the rape 
kits, and I just wondered for anyone that has knowledge about 
that, that is what we have been hearing, that there have been 
efforts to make victims pay for them or they are paying for 
them, or they pay for them and then they have to be paid back 
by the State. Any comments on that?
    Ms. Union. Yes, we have been having this discussion for the 
last few years. I live in California, and there is a backlog, 
and I work very closely with UCLA rape crisis centers, and as a 
rape survivor myself, I have--basically when your DNA is 
collected, your rape kit is collected, it is stuck in a brown 
bag, and it goes in--it sits on a counter, and I go to UCLA 
rape crisis centers, I just see the line of brown bags. That is 
children, women, men--everyone has--you become this brown bag. 
And I know that some brown----
    Senator Klobuchar. And this is DNA that could connect 
people to a crime.
    Ms. Union. Oh, yes. Oh, yes.
    Senator Klobuchar. Identify a perpetrator.
    Ms. Union. Oh, yes. And you know, after working in this 
business, everyone who deals with rape and domestic violence, 
you realize that there is a priority that is placed on certain 
brown bags, and they call them ``sexy victims,'' and the 
victims that--generally a sexy victim is a white woman, 
preferably young, preferably formally educated, ideally if they 
are attractive, even better, cases that can get media attention 
and that are slam-dunks. But if you are not a sexy victim, that 
includes African Americans, Latinos; basically anybody who is 
not a young white, educated, attractive women is not deemed a 
``sexy victim,'' and those cases are the ones that make up the 
bulk of the backlog cases.
    It is so transparent, and when you sit there and you see 
the row of these brown bags, it breaks your heart. Like I said, 
when I talk to rape victims in the United States, I have to 
give them the same spiel because the likelihood of justice that 
you think you are going to get because you watch ``CSI,'' well, 
they took my DNA and I was sort of revictimized again by having 
to do the rape kit so soon after. You know, my rapist is going 
to be apprehended, and I am going to get justice, and I can get 
on this path of recovery. And it just does not work like that 
for the majority of people.
    When we start to prioritize certain people, we create a 
parallel universe of justice, and that has to stop.
    Senator Klobuchar. All right. To end here, I noticed that, 
and thank you for that point, and as we look at this 
reauthorization and the tools we need in the criminal justice 
system, I think sometimes laws and funding were set back at a 
time before we had this extent of the technology we have and 
some of the State laws that we have now. And so that is why it 
is such an opportunity to look at what we should be doing 
differently and doing better.
    But I will point out, to end on a positive note here, Ms. 
Tronsgard-Scott, you said in your testimony that VAWA saved 
taxpayers $14.8 billion in net averted social costs in the 
first 6 years alone. Do you want to comment about that and 
where you see those savings?
    Ms. Tronsgard-Scott. I want to say that back in 1984, when 
I was a young person living in Cleveland, Ohio, I lived next 
door to a family where the husband was violent, and we had to 
tell the police officers that there was a burglar outside our 
house to get them to respond. They would not come to that house 
if we called the police.
    And so that family was left--the victim was left. There 
were no supports. There was no prosecution, there was nothing. 
That family went on, they were a family that was poor, they 
used the social services system, and their lot was fairly 
hopeless.
    Today, that same family would be embraced with a social 
services net that would in many ways, especially with the new 
economic justice work that we are doing in our movement, not 
only help them maintain safety but help them move forward in 
their economic goals. And so for me, it is money well spent.
    Senator Klobuchar. Thank you. Well, I think part of the 
successes that we have had with so many challenges ahead, as 
Ms. Union pointed out, but the successes are a tribute to all 
of you, and the way this movement has developed on the 
grassroots level with victims saying I am not going to take it 
anymore and being willing to come forward and speak. So I want 
to thank you all for that.
    We are looking forward as a Committee to working on this. 
As you can see, it is a bipartisan effort, strongly supported 
by both sides of the aisle. So I just want to thank you and 
wish you well, and your courage is unbelievable, and it is 
going to make a difference. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
    [Questions and answers and submission for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 56212.001

[GRAPHIC] [TIFF OMITTED] 56212.002

[GRAPHIC] [TIFF OMITTED] 56212.003

[GRAPHIC] [TIFF OMITTED] 56212.004

[GRAPHIC] [TIFF OMITTED] 56212.005

[GRAPHIC] [TIFF OMITTED] 56212.006

[GRAPHIC] [TIFF OMITTED] 56212.007

[GRAPHIC] [TIFF OMITTED] 56212.008

[GRAPHIC] [TIFF OMITTED] 56212.009

[GRAPHIC] [TIFF OMITTED] 56212.010

[GRAPHIC] [TIFF OMITTED] 56212.011

[GRAPHIC] [TIFF OMITTED] 56212.012

[GRAPHIC] [TIFF OMITTED] 56212.013

[GRAPHIC] [TIFF OMITTED] 56212.014

[GRAPHIC] [TIFF OMITTED] 56212.015

[GRAPHIC] [TIFF OMITTED] 56212.016

[GRAPHIC] [TIFF OMITTED] 56212.017

[GRAPHIC] [TIFF OMITTED] 56212.018

[GRAPHIC] [TIFF OMITTED] 56212.019

[GRAPHIC] [TIFF OMITTED] 56212.020

[GRAPHIC] [TIFF OMITTED] 56212.021

[GRAPHIC] [TIFF OMITTED] 56212.022

[GRAPHIC] [TIFF OMITTED] 56212.023

[GRAPHIC] [TIFF OMITTED] 56212.024

[GRAPHIC] [TIFF OMITTED] 56212.025

[GRAPHIC] [TIFF OMITTED] 56212.026

[GRAPHIC] [TIFF OMITTED] 56212.027

[GRAPHIC] [TIFF OMITTED] 56212.028

[GRAPHIC] [TIFF OMITTED] 56212.029

[GRAPHIC] [TIFF OMITTED] 56212.030

[GRAPHIC] [TIFF OMITTED] 56212.031

[GRAPHIC] [TIFF OMITTED] 56212.032

[GRAPHIC] [TIFF OMITTED] 56212.033

[GRAPHIC] [TIFF OMITTED] 56212.034

[GRAPHIC] [TIFF OMITTED] 56212.035

[GRAPHIC] [TIFF OMITTED] 56212.036

[GRAPHIC] [TIFF OMITTED] 56212.037

[GRAPHIC] [TIFF OMITTED] 56212.038

[GRAPHIC] [TIFF OMITTED] 56212.039

[GRAPHIC] [TIFF OMITTED] 56212.040

[GRAPHIC] [TIFF OMITTED] 56212.041

[GRAPHIC] [TIFF OMITTED] 56212.042

[GRAPHIC] [TIFF OMITTED] 56212.043

[GRAPHIC] [TIFF OMITTED] 56212.044

[GRAPHIC] [TIFF OMITTED] 56212.045

[GRAPHIC] [TIFF OMITTED] 56212.046

[GRAPHIC] [TIFF OMITTED] 56212.047

[GRAPHIC] [TIFF OMITTED] 56212.048

[GRAPHIC] [TIFF OMITTED] 56212.049

[GRAPHIC] [TIFF OMITTED] 56212.050

[GRAPHIC] [TIFF OMITTED] 56212.051

[GRAPHIC] [TIFF OMITTED] 56212.052

[GRAPHIC] [TIFF OMITTED] 56212.053

[GRAPHIC] [TIFF OMITTED] 56212.054

[GRAPHIC] [TIFF OMITTED] 56212.055

[GRAPHIC] [TIFF OMITTED] 56212.056

[GRAPHIC] [TIFF OMITTED] 56212.057

[GRAPHIC] [TIFF OMITTED] 56212.058

[GRAPHIC] [TIFF OMITTED] 56212.059

[GRAPHIC] [TIFF OMITTED] 56212.060

[GRAPHIC] [TIFF OMITTED] 56212.061

[GRAPHIC] [TIFF OMITTED] 56212.062

[GRAPHIC] [TIFF OMITTED] 56212.063

[GRAPHIC] [TIFF OMITTED] 56212.064

[GRAPHIC] [TIFF OMITTED] 56212.065

[GRAPHIC] [TIFF OMITTED] 56212.066

[GRAPHIC] [TIFF OMITTED] 56212.067

[GRAPHIC] [TIFF OMITTED] 56212.068

[GRAPHIC] [TIFF OMITTED] 56212.069

[GRAPHIC] [TIFF OMITTED] 56212.070

[GRAPHIC] [TIFF OMITTED] 56212.071

[GRAPHIC] [TIFF OMITTED] 56212.072

[GRAPHIC] [TIFF OMITTED] 56212.073

[GRAPHIC] [TIFF OMITTED] 56212.074

[GRAPHIC] [TIFF OMITTED] 56212.075

[GRAPHIC] [TIFF OMITTED] 56212.076

[GRAPHIC] [TIFF OMITTED] 56212.077

[GRAPHIC] [TIFF OMITTED] 56212.078

[GRAPHIC] [TIFF OMITTED] 56212.079

[GRAPHIC] [TIFF OMITTED] 56212.080

[GRAPHIC] [TIFF OMITTED] 56212.081

[GRAPHIC] [TIFF OMITTED] 56212.082

[GRAPHIC] [TIFF OMITTED] 56212.083

[GRAPHIC] [TIFF OMITTED] 56212.084

[GRAPHIC] [TIFF OMITTED] 56212.085

[GRAPHIC] [TIFF OMITTED] 56212.086

[GRAPHIC] [TIFF OMITTED] 56212.087

[GRAPHIC] [TIFF OMITTED] 56212.088

[GRAPHIC] [TIFF OMITTED] 56212.089

[GRAPHIC] [TIFF OMITTED] 56212.090

[GRAPHIC] [TIFF OMITTED] 56212.091

[GRAPHIC] [TIFF OMITTED] 56212.092

[GRAPHIC] [TIFF OMITTED] 56212.093

[GRAPHIC] [TIFF OMITTED] 56212.094

[GRAPHIC] [TIFF OMITTED] 56212.095

[GRAPHIC] [TIFF OMITTED] 56212.096

[GRAPHIC] [TIFF OMITTED] 56212.097

[GRAPHIC] [TIFF OMITTED] 56212.098

[GRAPHIC] [TIFF OMITTED] 56212.099

[GRAPHIC] [TIFF OMITTED] 56212.100

[GRAPHIC] [TIFF OMITTED] 56212.101

[GRAPHIC] [TIFF OMITTED] 56212.102

[GRAPHIC] [TIFF OMITTED] 56212.103

[GRAPHIC] [TIFF OMITTED] 56212.104

[GRAPHIC] [TIFF OMITTED] 56212.105

[GRAPHIC] [TIFF OMITTED] 56212.106

[GRAPHIC] [TIFF OMITTED] 56212.107

[GRAPHIC] [TIFF OMITTED] 56212.108

[GRAPHIC] [TIFF OMITTED] 56212.109

[GRAPHIC] [TIFF OMITTED] 56212.110

[GRAPHIC] [TIFF OMITTED] 56212.111

[GRAPHIC] [TIFF OMITTED] 56212.112

[GRAPHIC] [TIFF OMITTED] 56212.113

[GRAPHIC] [TIFF OMITTED] 56212.114

[GRAPHIC] [TIFF OMITTED] 56212.115

[GRAPHIC] [TIFF OMITTED] 56212.116

[GRAPHIC] [TIFF OMITTED] 56212.117

[GRAPHIC] [TIFF OMITTED] 56212.118

[GRAPHIC] [TIFF OMITTED] 56212.119

[GRAPHIC] [TIFF OMITTED] 56212.120

[GRAPHIC] [TIFF OMITTED] 56212.121

[GRAPHIC] [TIFF OMITTED] 56212.122

[GRAPHIC] [TIFF OMITTED] 56212.123

[GRAPHIC] [TIFF OMITTED] 56212.124

[GRAPHIC] [TIFF OMITTED] 56212.125

[GRAPHIC] [TIFF OMITTED] 56212.126

[GRAPHIC] [TIFF OMITTED] 56212.127

[GRAPHIC] [TIFF OMITTED] 56212.128

[GRAPHIC] [TIFF OMITTED] 56212.129

[GRAPHIC] [TIFF OMITTED] 56212.130

[GRAPHIC] [TIFF OMITTED] 56212.131

                                 <all>

</pre></body></html>
